APPE.
p3

uprente Court of floriba
FRIDAY, JUNE 26, 2020
CASE NO.: SC20-918
Lower Tribunal No(s).:
2D18-5096; 522006CF023073XXXXNO; 522006CF026725XXXXN0
CHRISTOPHER J. RAHIM

vs. STATE OF FLORIDA -

Petitioner(s)

Respondent(s)

This case is hereby dismissed. This Court lacks jurisdiction to review an
unelaborated decision from a district court of appeal that is issued without opinion
or explanation or that merely cites to an authority that is not a case pending review
in, or reversed or quashed by, this Court. See Wheeler v. State, No. SC19-1916
(Fla. June 11, 2020); Wells v. State, 132 So. 3d 1110 (Fla. 2014); Jackson v. State,
926 So. 2d 1262 (Fla. 2006); Gandy v. State, 846 So. 2d 1141 (Fla. 2003);
Stallworth v. Moore, 827 So. 2d 974 (Fla. 2002); Harrison v. Hyster Co., 515 So.
2d 1279 (Fla. 1987); Dodi Publ'g Co. v. Editorial Arn. S.A., 385 So. 2d 1369 (Fla.
1980); Jenkins v. State, 385 So. 2d 1356 (Fla. 1980).
No motion for rehearing or reinstatement will be entertained by the Court.
A True Copy
Test:

John A. Tama sino
Clerk, Suprethe Court
td
Served:
C. SUZANNE BECHARD
CHRISTOPHER J. RAHIM
HON. MARY BETH KUENZEL, CLERK
HON. NANCY MOATE LEY, JUDGE
HON. KEN BURKE, CLERK

PrE7k)a_i-K
p8

upreme Court of floriba
FRIDAY, JULY 17, 2020
CASE NO.: SC20-918
Lower Tribunal No(s).:
2D18-5096;
522006CF023073XXXXNO;
522006CF026725XXXXN0
CHRISTOPHER J. RAHIM

vs. STATE OF FLORIDA

Petitioner(s)

Respondent(s)

Pursuant to this Court's order dated June 26, 2020, the Motion for
Rehearing, treated as a Motion for Reinstatement is hereby stricken as =
unauthorized.

A True Copy
Test:

John A. Tomasino
Clerk, Suprethe Court

ks
Served:
C. SUZANNE BECHARD
CHRISTOPHER J. RAHIM
HON. MARY BETH KUENZEL, CLERK
HON. NANCY MOATE LEY, JUDGE
HON.. KEN BURKE, CLERK

4-PP_

t0E-1
upreme Court of floriba
WEDNESDAY, AUGUST 19, 2020
CASE NO.: SC20-1218
Lower Tribunal No(s).:
2D20-1986; 522006CF023073XXXXN0
CHRISTOPHER J. RAHIM

vs. STATE OF FLORIDA

Petitioner(s)

Respondent(s)

This case is hereby dismissed. This Court lacks jurisdiction to review an
unelaborated decision from a district court of appeal that is issued without opinion
or explanation or that merely cites to an authority that is not a case pending review
in, or reversed or quashed by, this Court. See. Wheeler v. State,NO. SC19-1916
(Fla. June 11, 2020); Wells v. State, 132 So. 3d 1110 (Fla. 2014); Jackson v. State,
926 So. 2d 1262 (Fla. 2006); Gandy v. State, 846 So: 2d 1141 (Fla. 2003);
Stallworth v. Moore, 827 So. 2d 974 (Fla. 2002); Harrison v. Hyster Co., 515 SO.
2d 1279 (Fla. 1987); Dodi Publ'g Co. v. Editorial Am. S.A., 385 So. 2d 1369 (Fla.
1980); Jenkins v. State, 385 So. 2d 1356 (Fla. 1980).
No motion for rehearing or reinstatement will be entertained by the Court.
A True Copy
Test:

John A. Tomasino
Clerk, Supreite Court.
td
Served:
C. SUZANNE BECHARD
CHRISTOPHER J. RAHIM
HON. NANCY MOATE LEY, JUDGE
HON. KEN BURKE, CLERK
HON. MARY BETH KUENZEL, CLERK

61)1).
6)5 czoc-„z,

uprente Court of floriba
THURSDAY, SEPTEMBER 3, 2020
CASE NO.: SC20-1218
Lower Tribunal No(s).:
2D20-1986;
522006CF023073XXXXN0
CHRISTOPHER J. RAHIM

vs. STATE OF FLORIDA

Petitioner(s)

Respondent(s)

Pursuant to this Court's order dated August 19, 2020, the Motion for
Rehearing, treated as a Motion for Reinstatement is hereby stricken as
unauthorized.

A True Copy
Test:

John A. Tomasino
Clerk, Supreme Court

ks
Served:
C. SUZANNE BECHARD
CHRISTOPHER J. RAHIM
HON. NANCY MOATE LEY, JUDGE
HON. KEN BURKE, CLERK
HON. MARY BETH KUENZEL, CLERK

-PP3
p9 1 0C3

upreme Court of oftoriba
TUESDAY, SEPTEMBER 29, 2020
CASE NO.: SC20-1409
Lower Tribunal No(s).:
2D19-3947; 522006CF023073XXXXNO; 522006CF026725XXXXN0
CHRISTOPHER J. RAHAIIVI

vs. STATE OF FLORIDA

Petitioner(s)

Respondent(s)

This case is hereby dismissed. This Court lacks jurisdiction to review an
unelaborated decision from a district court of appeal that is issued without opinion
or explanation or that merely cites to an authority that is not a case pending review
in, or reversed or quashed by, this Court. See Wheeler v. State, No. SC19-1916
(Fla. June 11, 2020); Wells v. State, 132 So. 3d 1110 (Fla. 2014); Jackson v. State,
926 So. 2d 1262 (Fla. 2006); Gandy v. State, 846 So. 2d 1141 (Fla. 2003);
Stallworth v. Moore, 827 So. 2d 974 (Fla. 2002); Harrison v. Hyster Co., 515 So.
2d 1279 (Fla: 1987); Dodi Publ'g Co. v. Editorial Am. S.A., 385 So. 2d 1369 (Fla.
1980); Jenkins v. State, 385 So. 2d 1356 (Fla. 1980).
No motion for rehearing or reinstatement will be entertained by the Court.
A True Copy
Test:

7
John A. Tomasino
Clerk, S up rethe Court
td
Served:
C. SUZANNE BECHARD
CHRISTOPHER J. RAHAIM
HON. NANCY MOATE LEY, JUDGE
HON. KEN BURKE, CLERK
HON. MARY BETH KUENZEL, CLERK

APP

uprente Court of Itortba
TUESDAY, OCTOBER 20, 2020
CASE NO.: SC20-1409
Lower Tribunal No(s).:
2D19-3947; 522006CF023073XXXXNO;
522006CF026725XXXXN0
CHRISTOPHER J. RAHAIM

vs. STATE OF FLORIDA

Petitioner(s)

Respondent(s)

Pursuant to this Court's order dated September 29, 2020, the Motion for
Rehearing, treated as a Motion for Reinstatement is hereby stricken as
unauthorized.
A True Copy
Test:

John A. Tomasino
Clerk, Suprethe Court

ks
Served:
C. SUZANNE BECHARD
CHRISTOPHER J. RAHAIM
HON. NANCY MOATE LEY, JUDGE
HON. KEN BURKE, CLERK
HON. MARY BETH KUENZEL, CLERK

Affia) aTIIC
IN THE DISTRICT COURT OF APPEAL OF FLORIDA
SECOND DISTRICT
CHRISTOPHER J. RAHAIM,
Appellant,
v.

Case No. 2D19-3947

STATE OF FLORIDA,
Appellee.
APPELLEE'S SUMMARY RULE 3.800 NOTICE TO COURT
COMES NOW the APPELLEE, the STATE OF FLORIDA, by and through
the undersigned Assistant Attorney General, and gives notice that
it does not intend to a file a brief in the above-captioned case
unless requested to do so by this Court. This appears to be an
appeal from the summary denial of post-conviction proceedings as
indicated on the "Acknowledgment of New Case" received from this
Court.

Respectfully submitted,
ASHLEY MOODY
ATTORNEY GENERAL

•

/s/Pamela Cordova Papasov
PAMELA CORDOVA PAPASOV
Assistant Attorney General
Florida Bar No. 1004434
Concourse Center 4
3507 E. Frontage Road, Suite 200
Tampa, Florida 33607-7013
(813)287-7900
Fax (813)281-5500
CrimAppTPAGWloridalegal.com
Pamela.Papasov@myfloridalegal.com
COUNSEL FOR APPELLEE

9

Coet,'.6

Department of Corrections
Inmate Personal Property List
(Please Print)
Inmate Name

Institution - •

Item

Number

Requested
Disposition

ID #

iZ

Cash Total
Amount
( )

( ).

20

Number
Date:
Final
Disposition

Officer's
Initials

Inmate's
Initials

0/20

•••

Retained

Date

Amount
Deposited

I agree to mail the above items marked M from my own funds.
I do not have the necessary funds for postage. However, I will obtain the necessary funds during the thirty (30) days allowed for disposition of
these items.
ee that the above items marked D be disposed of by the state.

Request Items Mailed To:
Name:

Witness:

Address:

cr

Insti tion 4r Community Facility
Signature of Inmate
Distribution:
White
Yellow
Pink
Goldenrod

— To inmate when property is collected
— To property room when property is collected
-- To inmate's Personal Property file
— In package being mailed home or to inmate in case
items are forfeited

DC6-224 (Revised 11-00)

Symbols indicate:

Rank

cAkip-ot

(Va /2-e
ate

umber &//
Date z/2—e
4-°' Inmate((I/7

D - Dispose
F - Forfeited
L - Lost/stolen
M - To be mailed

Incorporated by Reference in Rule 33-602.201, F.A.C.

R - Return to inmate
S - Stored
W - Worn out

Department of Corrections

APPEeu 1.)Dc

Inmate Personal Property List
(Please Print)

Inmate Name C2...c"\'1%rvA CA"1/4r- t- cc (JVA C-r
Institution
tr)
(*) tw\e_x..
Item

Number

Number
9,0 Z3 Li
Date: 60.,&"72_0

Requested
Disposition

ID #

Final

Disposition

Date

Officer's
Initials

Inmate's
Initials.

Le_et41 0\c,
r

Cash Total
Amount
( )
( )

Retained

Amount
Deposited

I agree to mail the above items marked M from my own funds.
I do not have the necessary funds for postage. However, I will obtain the necessary funds during the thirty (30) days allowed for disposition of
these items.
ee that the above items marked D be disposed of by the state.

Request Items Mailed To:
Name:

Witness:
S mature of Officer

Address:

/ CI

r

Rank.

rv\ x

Institution/or
or Community Facility

Date

rse1/

Signature of Inmate
Distribution:
White
Yellow
Pink
Goldenrod

— To inmate when property is collected
— To property room when property is collected
-- To inmate's Personal Property file
-- In package being mailed home or to inmate in case
items are forfeited

DC6-224 (Revised 11-00)

Symbols indicate:

Inmate Number

D - Dispose
F - Forfeited
L - Lost/stolen
M - To be mailed

Incorporated by Reference in Rule 33-602.201, F.A.C.

0/LcA0
Date

R - Return to inmate
S - Stored
W - Worn out

PPP52-4.k K
OFFICE OF THE ATTORNEY GENERAL
CRIMINAL, APPEALS

Concourse Center 4
3507 E. Frontage Road, Suite 200
Tampa. FL 33607-7013
Phone (813) 287-7900
Fax (813) 281-5500

ASHLEY MOODY
ATTORNEY GENERAL
STATE OF FLORIDA

November 17, 2020
Honorable Scott S. Harris, Clerk
Supreme Court of the United States
One First Street, N.E.
Washington, DC 20543
RE:

CASE NAME: Christopher Rahaim v. State of Florida
Case No. 20-6168

WAIVER
Dear Mr. Harris:
Respondent, State of Florida, does not intend to file a response to the petition in the
above captioned case, unless requested so to do by the Court. This is not a case in which
the death penalty has been imposed.
Please enter my appearance as Counsel of Record for all respondents in this case.
Sincerely,
ASHLEY MOODY
ATTORNEY GENERAL

C. Suzanne Bedard
Chief - Assistant Attorney General
Bureau Chief, Tampa Criminal. Appeals
CarlaSumne.Bechardianvfloridalegal.com
/gc
cc:

Christopher Rahaim, #R02347, Gulf Correctional Institution, annex,
8501 Hampton Springs Road, Perry, FL 32348

APPEX)

ctr. ----7

IN THE CIRCUIT COURT OF THE SIXTH JUDICIAL CIRCUIT
IN AND FOR PINELLAS COUNTY, STATE OF FLORIDA

CHRISTOPHER RAHAIM,
Petitioner,
v.

Case No.: 06-23073 C.F.A.N.O.

STATE OF FLORIDA
Respondent.

MOTION FOR CONTEMPT ORDER TO SHOW CAUSE
AND FOR RELIEF FROM JUDGEMENT
Comes now, the Petitioner, Christopher Rahaim, and prays this Court order the State
Attorney, Bernie McCabe, to show cause why he -should not be held in contempt of court for
willfully failing to comply with two court orders" for discovery, pursuant to Rule 3.220
Fla.R.Crim.P., Fla. Stat. 119.01 for public records, The Freedom. Of Infamation Act, Title 18 §
3500, Rule 16 (a)(1)(c), Fed.R.Crim.P., Article 1 § 24 of The Florida Constitution and the 6th and
14th Amendments to the U.S. Constitution, providing due process rights of evidence disclosure.
Over 180 days has passed since this court rendered its order on August 9th, 2019, ordering
the State to respond to Petitioners Petition for Writ of Mandamus, originally filed as "Motion To
Compel Discovery And Unseal Files To Expose Fraud, Connivance And Manifest Injustice."
These documents requested must be produced to correct fundamental errors by "Fraud On The
Court," despite any incriminating results to their maker. See case: Conner v. Alderman, 159
So.2d 890 (Fla. 2d DCA 1964). McCabe will not comply in responding to nor producing
documents proving connivance in Petitioners defeat and entitlement of Petitioner to release.
Evidence of bad faith litigation, fraud, delay tactics and willful disregard, warranting the
severest sanctions, will be outlined in this motion.

P9 - -2 of— 7

ApP-

STATEMENT OF FACTS
Bernie McCabe has been knowingly, with willful disregard, concealing exculpatory
documents, evidence in his possession and the identities of undercover police and confidential
informants, all employed in a premeditated setup against Petitioner. All evidence is exculpatory,
impeaching and shows the actual innocence of the Petitioner. The Petitioner was falsely arrested
in October of 2006 and has been denied due process from the beginning of this case. Manifest
Injustice has occurred through "Fraud On The Court" and false imprisonment. The public
records and exculpatory DNA evidence being concealed shows the Petitioner is entitled to relief.
See cases:
Garcia v. State, 949 So. 2d 784 (Fla. 2006).
Bryan v. State, 753 So. 2d 1244 (Fla. 2000).
Buenoano v. State, 708 So. 2d 941 (Fla. 1998).
Campbell v. State, 593 So. 2d 1148 (Fla. 1 DCA 1992).
In Campbell, requested discovery was subject to public records laws. Public records
requests are civil in nature and invoke substantive-due process rights. Petitioner has cited Rule
1.380 Fla.R.Civ.P., "Failure to make discovery," as the applicable rule. The circuit court has
argued civil rules do not apply in criminal cases. However, in case Coblentz v. State; 855 So. 2d
681 (Fla. 2nd DCA 2003), the court recommended defendant file a relief from judgment; pursuant
to rule 1.540 (b) Fla.R.Civ.P. This case is on point with this case before the court. In Coblentz, a
hearing was ordered to be held to determine the merits where a judgment was obtained by fraud.
There are several levels of fraud in this case, warranting reversal of judgment, pursuant to Rule
1.540 Fla.R.Civ.P., Fla. Statutes § 59.041, § 924.033 and § 90.104 (1)(3), providing, if excluded
evidence affected the substantial rights of a party, resulting in a miscarriage of justice; then
reversal of judgment is warranted. This is applied in case: State v. DiGuilio, 491 So. 2d 1129
2

NP.
30-E-7
(Fla. 1986) defining the harmless error standard in reversal of judgments, pursuant to Fla. Stat. §
924.033. In case State v. Glossom, 462 So.2d 1082 (Fla. 1985) the case was dismissed for
governmental misconduct involving concealed exculpatory evidence and confidential informants
promised gain. This case is on point in this case of fraud by confidential informant Mary Peck.
The Petitioner has been prejudiced and has presented overwhelming documentation in
over 8 motions to this court, containing a list of 111 facts, proofs and elements, with over 94
verifying exhibits, that prove actual.innocence, manifest-injustice, connivance and conspiracy of -"-the State to conceal evidence. All this prevented Petitioner from a fair trial and true contest of
the merits. This "Fraud On The Court" is further evidenced by the following:
Detective and Prosecutor never took a written or testimonial sworn statement
from the alleged victim, would be material witness, informant Mary Peck.- This shows bad faith
litigation, violating rule 3.140 (g) Fla.R.Crim.P.. • Intent to omit relevant facts, proving fraud, is
evidence by this fundamental due process violation. The lack of material eyewitness testimony,
with intent to defraud by omission, voids the charging document rendering jurisdiction of the
court non-established.
Detectives manufactured probable cause for a search warrant and arrest by fraud.
The alleged victim claimed falsely she was brought out on Petitioner's boat, was forced into the
cabin and sexually assaulted. She claimed Petitioner pulled out of her and ejaculated while
moaning. The detectives fraudulently represented that semen was found on the informant's
buttocks. S.A.V.E. exam results confirm no semen was found on informant's buttocks, forensics
show no fluids found under black lights on any surface in the cabin of the boat. In deposition,
taken 5 months later, the informant testifies. This testimony overwhelmingly proves the actual
innocence of the Petitioner. There are over 20 discrepancies, prior inconsistent statements and
3

`7
pg, o-r7

APP.

outright lies that would show, to any reasonable finder of fact, that the informant is a habitual liar
with mental illnesses and the Petitioner is actually innocent. This testimony proves accuser was
never on Petitioner's boat and sex never occurred.
Now, 5 months after the informant claims the Petitioner pulled out of her and ejaculated
while moaning, she testifies she was told about semen being present, not eyewitnessing this nonoccurring event. She has no recollection that the Petitioner moaned. (See list of facts: fact
number 32 with all listed exhibits). There are over-40 facts.-proving overwhelmingly,- that -the informant was never on Petitioner's boat and sex could not have occurred in the position
informant testifies she was in where Petitioner was, "straddling her, her legs closed, Petitioner's
legs constricting her legs." (See list of facts: fact numbers 21-32- with all-: verifying exhibits
listed). These facts show actual innocence. The--State-covering up proof- of: false -imprisonment.
McCabe refuses to produce S.A.V.E. exam document.
McCabe refuses to comply with this Court's order rendered on Nov. 21', 2007,
compelling supplemental DNA paperwork, showing undercover cops Jerry and Sean, who were
employed in a setup, were the donors of the semen found in their informant Mary. Mary at first
lied, but then admitted to a sexual relationship with Jerry. (See list of facts: fact numbers 10 and
11 with all verifying exhibits listed).
McCabe refuses to produce a copy of the written order, granting supplemental
DNA paperwork. The State is claiming no written order was filed with the Clerk and therefore it
is not a public record. The law provides oral pronunciation renders an order given and the
docket record, showing the granting of defenses motion to compel supplemental DNA paperwork
(see exhibit 2) and the transcript of the hearing, where the judge grants this motion, are both
4

-

APP. -7
public records, proving a valid order was rendered. The State has removed, with fraudulent
intent, this paper order from the court file, in violation of Rule 2.410 Fla.R.Jud.Adm. and Fla.
Stats. 838.022, 839.13, 918.13.
The effort of McCabe to conceal this paper order document, shows the exculpatory nature
and "Fraud On The Court" doubly, by the impeachability of DNA expert and the concealment of
this exonerating evidence, denying the Petitioner due process and acquittal.
Petitioner sent 5 requests, before -the Court granted,- in part,- the MotiOn To
Compel. For two years, additionally to the 12 years Petitioner has been falsely imprisoned,
Bernie McCabe has shown, by refusal to comply with court orders, that he never intends to
produce any documentation of exculpatory evidence, despite the Petitioner sending two money
orders for the amount of the states invoice.
Bernie McCabe refuses to respond to the Petition For Writ of Mandamus or any
allegation of fraud. McCabe refuses to comply with laws, rules and this Court's orders.
McCabe refuses to address the issue that he fraudulently represented that the
alleged victim was before the Court, using an imposter, denying the Petitioner face to face
confrontation, as provided by due process laws of the 6th and 14th Amendments of the U.S.
Constitution and case: Olden v. Kentucky, 488 U.S. 227, 231 (1988). Intent to commit "Fraud
On The Court" is proven by this fact.
Petitioner sent a 6th request for documents, pursuant to "The Freedom of
Information Act", on August 16th, 2019 (see exhibit 95). The State responded, claiming it would
send an invoice for the requested documents. (See exhibit 96). On November 27th, 2019, after
no invoice was provided, the Petitioner sent a 7th request for the invoice (see exhibit 97), the
State falsely claimed would be provided.

AP?, -?
6a-F7
10.

The State has requested 3 extensions of time to respond to the Petition. The

extended time, granted by the Court, expired Dec. 25th 2019. Over 60 days has passed and the
State has not responded to the Petitioner. Nor has there been any motion filed requesting an
extension of time. The State is in contempt of Court.
CONCLUSION
The State and Bernie McCabe continues, without consequence, to refuse to comply with
orders of this Court and produce documents or respond to the Petitioner. The State is incontempt of Court. It appears Bernie McCabe has an indefinite intent to conceal exculpatory
documents and will never act lawfully to allow proper disclosure of evidence, denying Petitioner
due process. Intent to commit fraud and conceal fraud shows bad faith litigation to delay the
release of the Petitioner and avoid a political scandal by exposure of truth in this case. This is a
textbook example of malicious prosecution, manifest injustice, and fraud on the court. No
evidence has been submitted by the State to refute any assertions of the Petitioner, conceding all
alleged violations perpetrated by McCabe are true. There is an insufficiency of evidence to
sustain a conviction in this case, warranting a Judgement of Acquittal', pursuant to rule 3.380 (a)
Fla.R.Crim.P.. There is overwhelming evidence of Actual Innocence.
Accordingly, the Petitioner requests this Court issue an order for Bernie McCabe and the
State to show cause why they should not be held in contempt of court. Petitioner also requests
the-Co make a-provision that-any rther-non-c-empli-anee-ef-the-order's of-the-court-will-result
in the severest sanctions, provided by rule 3.220 (n), Fla. Statutes § 59.041, § 924.033, § 90.104
(1)(3) and case laws: State v. Gillis, 876 So. 2d 703 (Fla. 3rd DCA 2004), Commonwealth

McBride v. State, 7 So.3d 1146 (FIa. 2nd DCA 2009), Tibbs v. State, 397 So.2d 1120 (FIa. 1981) citing: McArthur v.
Nourse, 369 So.2d 578 (FIa. 1979).

1

6

APP.,
6

.r,
cri-- 7'

Federal Savings and Loan v. Tubero, 569 So. 2d 1271 (Fla. 1990), this being the reversal of
judgement, entering a Judgement of Acquittal, and or dismissal of case 06-23073. Petitioner
prays this Court finds, in the interests of justice, that this severest sanction is warranted and will
execute this court's authority forthwith.
Respectfully Submitted,

OATH
Under penalties of perjury, the Petitioner, Christopher Rahaim, does swear that all facts
contained in the foregoing document are true and correct.
Signed:

CL:41.4_,

teea0 0.

-

CERTIFICATE OF SERVICE
This is to certify that a true and correct copy of the foregoing was-mailed to the Office of
the State Attorney, 14250 49th St. North, Clearwater, FL 33762 on thisSirkday of March, 2020.
Signed:

OUTGOING LEGAL MAIL
PROVIDED TO TAYLOR C.I. FOR
MAILING ON
c(D.
DATE (MAILROOM-MAI UNIT) T ICER INT.

7

•

•

-

fiPPEiu Ons
F low

IN THE CIRCUIT COURT OF THE SIXTH JUDICIAL CIRCUIT
IN AND FOR PINELLAS COUNTY, STATE OF FLORIDA

CHRISTOPHER RAHAIM,
Petitioner,
Case No.: 06-26725 C.F.A.N.O.
STATE OF FLORIDA
Respondent.

MOTION FOR CONTEMPT ORDER TO SHOW CAUSE
AND FOR RELIEF FROM JUDGEMENT
COMES NOW, the Petitioner, Christopher Rahaim, and prays this court oider the State
Attorney, Bernie McCabe, to show cause why he should not be held in contempt of court for
willfully failing to comply with this court's order, rendered on August 9th 2019, for discovery.
Bernie McCabe was ordered to respond to Petitioner's "Motion To Compel Discovery And
Unseal Files To Expose Fraud, Connivance And Manifest Injustice," which the court has ordered
to be heard as a Writ of Mandamus. This motion was pu'rs' uant to rule 3.220 Fla.R.Crim.R, Fla.
Stat., 119.01 for public records, The Freedom of Information Act, Title 18 § 3500, rule 16
(a)(1)(c) Fed.R.Crim.P., Article 1 § 24 of the Florida Constitution and the 6th and 14th
Amendments to the U.S. Constitution, providing due process rights of evidence disclosure.
Over 180 days has passed since this court rendered an order on August 9th 2019, ordering
the State to respond to the Writ of Mandamus. The documents requested and paid for must be
produced to correct fundamental errors by "Fraud On The Court," despite any incriminating
results to their maker. See case: Conner v. Alderman, 159 So. 2d 890 (Fla.

rd

DCA 1964).

McCabe will not comply in responding or producing documents, proving connivance in
Petitioner's defeat and entitlement of Petitioner to release. Evidence of bad faith litigation,

Aft).
fraud, delay tactics and willful disregard, warranting the severest sanctions, will be outlined in
this motion.
STATEMENT OF FACTS
Bernie McCabe has been knowingly, with willful disregard, concealing exculpatory
documents, evidence in his possession and the identities of undercover police and confidential
informants, all employed in a premeditated setup against Petitioner. All evidence is exculpatory,
impeaching and shows the actual innocence of the Petitioner. The Petitioner was falsely arrested
in October of 2006 and has been denied due process from the beginning of this case. Manifest
Injustice has occurred through willful "Fraud On The Court" and false imprisonment. The public
records, showing complete and total fraud and the non-occurrence of all events alleged by the
State, completely show the Petitioner is entitled to relief. See cases:
Garcia v. State, 949 So. 2d 784 (Fla. 2006).
Bryan v. State, 753 So. 2d 1244 (Fla. 2000).
Buenoarzo v. State, 708 So. 2d 941 (Fla. 1998).
Campbell v. State, 593 So. 2d 1148 (Fla. 1st DCA 1992).
In Campbell, requested discovery was subject to public records laws. Public records
requests are civil in nature and invoke substantive due process rights. Petitioner has cited and
alleges violations of rule 1.380 Fla.R.Civ.P., "Failure To Make Discovery" and rule 3.220
Fla.R.Crim.P., as the applicable rules. The Circuit Court argues civil rules do not apply in
criminal cases. However, in Coblentz v. State, 855 So. 2d 681 (Fla. 2nd DCA 2003), the court
recommended defendant file a relief from judgment, pursuant to rule 1.540 (b) Fla.R.Civ.P.. This
case is on point with this case before the court. In Coblentz, a hearing was ordered to be held to
determine the merits where a judgment was obtained by fraud.
There are several levels of fraud in this case, warranting reversal of judgment, pursuant to
rule 1.540 Fla.R.Civ.P., Fla. Statutes § 59.041, § 924.033 and § 90.104 (1)(3) providing, if

r

AR.
P5- 3 o

excluded evidence affected the substantial rights of a party, resulting in a Miscarriage. of Justice,
then reversal of judgment is warranted. This is applied in case: State v. Diguilio, 491 So. 2d
1129 (Fla. 1986) defining the harmless error standard for reversal of judgment pursuant to Fla.
Stat. § 924.033. Governmental misconduct requires dismissal of case. See case: State v.
Glossom, 462 So.2d 1082 (Fla. 1985).
The Petitioner has been greatly prejudiced and has presented overwhelming
documentation in over 10 motions to this court, containing a list of 111 facts, proofs and
elements, with over 94 verifying exhibits, that prove actual innocence, manifest injustice,
connivance and conspiracy of sheriff's detectives and prosecutor Bernie McCabe to criminally
conceal evidence and true facts.
All this prevented Petitioner from a fair trial, a true contest of the merits and acquittal.
This total "Fraud On The Court" is evidenced by the following:
1.

Detective and Prosecutor never took any written or testimonial sworn statement

from the alleged victim, would be material witness, informant Tracy Purser, who refused to
prosecute by signing a waiver of prosecution. This lack of a sworn statement shows bad faith
litigation, violating rule 3.140 (g) Fla.R.Crim.R. Intent to omit relevant facts, proving fraud, is
evidenced by this fundamental due process violation. The lack of material eyewitness testimony,
with the intent to defraud by omission, voids the charging document rendering jurisdiction of the
court non-established. The informant's sworn statement would reveal a report date of September
19', 2006, not September 17th, 2006. This would prove all state's witnesses are testifying falsely
to non-existent facts about a non-existent crime and all are impeachable, warranting reversal for
fraud.

3

Pr-PP

15 4 acr
Sheriff's Department detectives falsified reports fraudulently claiming all facts
and that this report was filed on September 17th, 2006. This violates Fla. Statutes § 838.22 and §
839.13 and shows intentional "Fraud On The Court."
Detective Don Wiwi fraudulently testified that the informant-prostitute allegedly
remembered the oddly numbered 4 digit street number of a house she has never been to. Her
memory would be seriously compromised because she admittedly was high on crack and drunk
from drinking all night at a bar (see Supplemental Appendix For Exhibit Proving Fraud, exhibit
35, 36, 89). With this false claim of having an address, detective further proves fraud by
testifying he was able to identify two vehicles registered to the Petitioner from this address
search of 5989 71' St. North and that he obtained a driver's license photo of the Petitioner with
an address of 5989 71' St. and compiled a photo pack. This never occurred. There is no photo
pack and Petitioner's two vehicles and driver's license, as well., as court documents, all. show
Petitioner's address as 6221 N. Dale Mabry Tampa. (See Supplemental Appendix_For Exhibits -Proving Fraud, exhibits 90-94). This shows intent to defraud and a questionable identification.
The detectives initial contact with the Petitioner was Oct. 4, 2006, nearly 3 weeks after this
alleged incident. If detectives received a report on Sept. 17th, 2006 and had the alleged address,
they would have gone immediately or the next morning to this address to preserve witness
accounts and evidence. None of these claims by the police outweigh the evidence, proving a
setup, initially falsified reports and false prosecution of a non-existent crime. Petitioner has alibi
witnesses and video proving innocence.
Petitioner paid for the original police report taken on September 19, 2006 by St.
Petersburg Police Department, but Bernie McCabe refuses to provide this document and comply
with this courts order and contracted fiduciary duty to provide this document. McCabe is

4

fIPP.
160, ,c0F

/-

delaying the inevitable exposure of total corruption, criminally concealing true facts and
evidence. (See exhibit 28 pgs. 1-6).
Petitioner sent, in addition to the 5 requests for discovery, 2 more written requests
under "The Freedom of Information Act," because the state documented it's promise to provide
an invoice, but even after 6 months refuses to provide any specifically requested documents.
(See exhibits 95, 96 and 97 showing 6th and 7th request and piomise of invoice).
Sheriff's deputy Joleen Parkins fraudulently testified she arrived at a scene, that
never occurred, claiming she arrived just as the St. Petersburg Fire and Rescue Truck was
leaving. (See Supplemental Appendix For Exhibit Proving Fraud, exhibit 88).
Fire Dept. records custodian Jenna Knippen 'confirmed to several witnesses that
after a diligent search of dispatches, she was unable to find any record of a call of battery on 34th
St. N. St. Petersburg. Jenna searched diligently, seeking records from Sept. 16th, 17th and 18th
2006 for calls between 2 and 5 a.m. (see exhibits 39, 40).
Witnesses calling Fire Department Administration and appearing in person,
talking to Diana Moore, were given the run-a-round and prevented from obtaining official
records, showing the non-occurrence of this falsely alleged event, pursuant to Fla. Stat. 119.01
for public records requests. Moore refused to allow "in person" records inspection, violating §
119 public records laws.
Petitioner sent certified mail, received January 14th, 2019 by Suzanne Jamin at
Fire Department Administration. (See exhibit 41). This request for dispatch records included a
$10 money order, but was never responded to or the $10 returned (see exhibit 41 pgs 1 and 2);
Jenna Knippen changed her story 6 months later, claiming they found a record of
the call. This shows undue influence by the state, witness tampering, and a conspiracy to conceal

5

APP•

Coo
the true dispatch records and officially influence public records custodians to commit fraud and
or falsify public records, violating Fla. Statutes § 838.22, § 839.13 and § 119.01.
FDLE records show no submission of any DNA sample taken from informant
Tracy A. Purser. The State Attorney, Bernie McCabe, is concealing evidence of fraud, the
impeachability of all state's witnesses and an intent by McCabe to prevent the production of
evidence, showing a fraudulent prosecution of a non-existent crime and totally false testimony
of non-occurring events. There was no 911 call, no scene, no DNA taken on Sept. 17th, 2006.
The FDLE refuses to respond to "Requests For Admission" sent pursuant to 1.370

Fla.R.Civ.Proc., conceding no DNA submission.
The alleged victim-informant Tracy signed a waiver of prosecution. Bernie
McCabe has removed this document from the Court file and refuses to produce it. (See List of
Facts: Fact numbers 96-99 with all corresponding exhibits listed).
Informant prostitute admitted to giving another date of_alleged offense and had no
recollection of the Sept. 17th date of the alleged offense or day of the week the alleged offense
occurred on, until she was told of this date by assistant prosecutor. (See List of Facts: Fact
number 100, exhibits 35 and 36).
Alibi video from The Hard Rock Hotel is being concealed and was paid for but
not provided. Petitioner was in fact 40 miles away from a non-existent crime scene.
Bernie McCabe and A.S.A. Michael Man. are concealing the original affidavits of
alibi witnesses Peter Wisoff and Gabriel Perez and have tampered with Perez, tricking him into
testifying falsely that he was not at the Hotel on Sept. 17th, 2006 between 2 and 4 am. (See
exhibit 24-27, 37).

6

ATI 'er
-PT
A response to a complaint filed with The Florida Bar against former A.S.A.
Broderick Levert Taylor confirms DNA results were still pending in December 2007. This was
over 1 year after DNA was falsely alleged to have been taken, showing detective Ed Judy and
DNA expert Kimberly Sutton were impeachable, testifying Petitioner matched a sample that was
never taken and no paper documents exist for testing. (See exhibit 44).
Bernie McCabe refuses to produce the video of advisory court, where the
Petitioner shows consciousness of innocence. Petitioner committed to an alibi defense while
yelling "yes" because he believes, after confirming the alleged time and date of offense with the
judge, that he can prove his innocence and a setup by the exonerating hotel security video.
CONCLUSION
The State and Bernie McCabe continues, without consequence or due process, to comply
with orders of this court and produce documents or respond to the Petitioner. It has been 60 days
since the States third extension of time expired on December 25th, 2019. No fourth extension has
been requested. The State is in contempt of court. It appears Bernie McCabe has an indefinite
intent to conceal exculpatory documents and will never act lawfully to properly produce
evidence, denying the Petitioner due process, acquittal and release. Intent to commit fraud and
conceal fraud shows bad faith litigation to delay the release of the Petitioner and avoid a political
scandal by exposure of the truth in this case. This is a textbook example of manifest injustice,
malicious prosecution and "Fraud On The Court."
No evidence has been submitted by the State, which also refuses to respond, to refute any
and all assertions of the Petitioner, conceding all alleged violations, perpetrated by McCabe, are
true and correct.

7

7

•

Accordingly, the Petitioner requests this court to issue an order for Bernie McCabe to
show cause why he should not be held in contempt of court. Petitioner also requests the court to
make a provision that any further non-compliance of this court's order's will result in the
severest of sanctions, provided by rule 3.220 (n), Fla.-Statutes' §

§- 914:033, § 90.104

efs

(1)(3) and case laws: State v. Gillis, 876 So. 2d 703 (Fla. 3'' DCA 2004), Commonwealth
Federal Savings and Loan v. 7itbero, 569 So. 2d 1271 (Fla. 1990), this being reversal of
judgment, entering of a "Judgement Of Acquittal", pursuant to Rule 3.380 (a) for insufficiency of
evidence' and or dismissal of case 06-26725 C.F.A.N.O. Petitioner prays this court finds, in the
interests of justice, that this severest sanction is warranted and will execute this courts authority
forthwith.

OUTGOING LEGAL MAIL
IL TAYLOR C.I. FOR
PROVIDED TO
MAI ON

DATE OAMRWM-MAIN
(MM

Respectfully Submitted,

-v --

N 7rir FICER
OATH

Under penalties of perjury, the Petitioner, Christopher Rahaim, does *swear that all facts
contained in the foregoing document are true and correct.
Signed:

tat'

CERTIFICATE OF SERVICE
This is to certify that a true and correct copy of the foregoing was mailed to the Office of
the State Attorney, 14250 49th St. North, Clearwater, FL 33762 on this day of March, 2020.
Signed:

McBride v. State, 7 So.3d 1146 (FIa. 2nd DCA 2009); Tibbs v. State, 397 So.2d 1120 (Fla. 1981) citing McArthur V.
Nourse, 369 So.2d 578 (FIa. 1979).

1

8

CERTIFICATE OF DATE AND SERVICE
This certifies that a true copy of the foregoing was sent to Respondents, State of Florida
Attorney General 350 E. Frontage Rd, Ste. 200 Tampa, FL 33607 and the Inspector General
650 Pennsylvania Avenue N.W. Rm. 5616 Washington, D.C. 20530, on this °lit day of
February 2021.
Signed:

c_12.,zra_

CERTIFICATE OF DATE
Under the penalty of perjury the Petitioner swears that the date is true and correct.

idd

